                                  Closeout for MOO020006

A Program Director' informed us of an ad hoc review containing allegations of misconduct.
The reviewe9 made comments to the effect that the PI3 and &-PI4 of an NSF proposal5
(the subjects) plagiarized an idea or ideas from one of his papers6 (the reviewer's paper) into
one of their papers7 (the subjects' paper). He also suggested that the subjects may have
committed this plagiarism from an unpublished version of his paper. The reviewer did not
explicitly identify the plagiarized idea(s) or the evidence which led him to suspect the
inappropriate use of premature access. Lastly, the reviewer recounted his belief that the
subjects' paper misrepresented the published remarks of other authors.' The subjects' paper
acknowledged NSF support.

A thorough comparison of the subjects' paper against the reviewer's paper revealed no
support for an allegation of plagiarism and, as a result, no reason to consider the question of
access or its implications.

The alleged misrepresentations were found to be differences of opinion involving the
interpretation of data and, thus, not evidence of misconduct in science.

This case is closed and no further action will be taken.

cc: Integrity, IG




    Footnotes Redacted
5




                                          Page 1 of 1
